audit report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grants to the Fremont Police Department, California
GR-90-00-017
May 2000
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services to the Fremont Police Department (FPD), California.  The purpose of the grants is to enhance community policing.  The FPD was awarded a total of $1,009,678 to hire 12 sworn officers and redeploy the equivalent of 4.4 existing full-time officers from administrative duties to community policing.

We reviewed the FPD's compliance with eight essential grant conditions.  We found the grantee's budgeting practices, hiring practices, local matching funds, retention efforts, community policing efforts, and officer redeployment to be acceptable.  However, we found weaknesses in areas of reimbursement requests and status reporting, as identified below.  As a result, we question $1,345 and determine that $2,233 is enhanced revenue. 1

The FPD claimed unallowable civilian overtime of $1,095 and unallowable civilian uniform allowance of $250 on the MORE 98 grant.

	The FPD requested and received an advance for the entire grant award amount of $109,678 for the MORE 98 grant on April 19, 1999.  At the end of field work on September 30, 1999, the FPD had only incurred expenses of $48,720 related to this grant.  Because the FPD's grant expenditures did not equal the drawdown, interest of $2,233 was earned in excess of the amount authorized by the Department of Justice guidelines.

	Several Financial Status Reports were either not accurate, not submitted or not submitted timely.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.




Footnote
The Inspector General Act of 1988 contains our reporting requirements for questioned costs.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and enhanced revenue.